SENSITIVE BUT UNCLASSIFIED



   United States Department of State
 and the Broadcasting Board of Governors
           Ofﬁce of Inspector General




              Report of Inspection


 Review of the Bureau of
  Diplomatic Security’s
  Revocation Process for
   Security Clearances

 Report Number ISP-I-06-43, September 2006



                           IMPORTANT NOTICE

This report is intended solely for the ofﬁcial use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy
directly from the Ofﬁce of Inspector General. No secondary distribution may be made,
in whole or in part, outside the Department of State or the Broadcasting Board of
Governors, by them or by other agencies or organizations, without prior authorization
by the Inspector General. Public availability of the document will be determined by
the Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of
this report may result in criminal, civil, or administrative penalties.




  SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



                               TABLE OF CONTENTS



KEY JUDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
OBJECTIVES, SCOPE, AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
CONTEXT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
CASE ADJUDICATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
      Case Processing Time . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
      Case Documentation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
      Conditional Security Clearance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
THE APPEALS PANEL . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
STREAMLINING THE PROCESS WITH TECHNOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
DS COMPLIANCE ACTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
FORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
INFORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
APPENDIX. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23




                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




                                     KEY JUDGMENTS


•    The Bureau of Diplomatic Security (DS) equitably administers the process
     for the revocation of security clearances, known as the adverse action process.
     The Ofﬁce of Inspector General’s (OIG) review determined that investigators’
     and adjudicators’ actions appeared free of bias or prejudice and were based
     upon speciﬁed investigative and adjudicative guidelines and upon Executive
     Orders (E.O.) and Department of State (Department) standards, as published
     in the Foreign Affairs Manual.
•    DS does not have a process to follow up on those cases containing a condi-
     tional reinstatement of the security clearance. In six of the 31 closed cases
     that reinstated an employee’s clearance based on the employee meeting certain
     conditions, DS only followed up on one case to ensure that all conditions of
     the reinstatement had been met.
•    Employees can appeal the proposed revocation of their security clearance to
     a three-member appeals panel that includes the Under Secretary for Manage-
     ment, the Assistant Secretary for Administration, and the ofﬁcial who is both
     Director General of the Foreign Service and Director of Human Resources.
     However, the appeals panel does not have a speciﬁed time frame in which to
     meet. This may further delay the process. After DS transmitted employees’
     appeals, the appeals panel took from three to 13 months to render the Depart-
     ment’s ﬁnal decisions.




OIG Report No. ISP-I-06-43, Review of DS’s Revocation Process for Security Clearances - September 2006   1 .


                       SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




2 .   OIG Report No. ISP-I-06-43, Review of DS’s Revocation Process for Security Clearances - September 2006


                   SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED



              OBJECTIVES, SCOPE, AND METHODOLOGY


      This review was prompted in part because a congressional ofﬁce had provided
 OIG with a constituent’s allegation that DS does not promptly, efﬁciently, and fairly
 investigate and adjudicate security clearance suspensions, resulting in a waste of
 government resources and placing Department employees’ careers and reputations
 at risk. Additionally, the Concerned Foreign Service Ofﬁcers, a group of Foreign
 Service ofﬁcers that is not afﬁliated with the Department, complained to OIG of
 problems with the handling of cases by the DS Adverse Action Division. Speciﬁ-
 cally, the group’s representative asserted, among other charges, that:
     •    Security clearances are suspended for reasons other than risk to national
          security;
     •    Security clearances are suspended arbitrarily and decisions are inﬂuenced by
          bias, prejudice, and ignorance;
     •    There is improper and unnecessary referral of clearance-suspension cases
          to other agencies;
     •    Investigations are lengthy; and
     •    There is a lack of adjudicative standards.
      OIG’s review sought to determine whether DS handles adverse action cases im-
 partially and in a timely fashion, and does so without having punitive actions planned
 in advance. OIG performed this review’s ﬁeldwork in the Washington, DC, area
 between March 21 and May 19, 2006. OIG interviewed ofﬁcials of DS, the Bureau
 of Human Resources (HR), and the Ofﬁce of the Legal Adviser. In addition, OIG
 discussed a section of the report with staff from the Ofﬁce of the Under Secretary
 for Management. OIG met with representatives of the American Foreign Service
 Association and the Concerned Foreign Service Ofﬁcers. Furthermore, OIG met
 with management ofﬁcials from the Department of Justice, National Security Agen-
 cy, and Central Intelligence Agency to discuss their organizations’ adverse action
 processes. During the review of the security clearance suspension and revocation
 process, the team analyzed all 43 adverse action cases that DS closed between Janu-
 ary 1, 2000, and December 31, 2005, to determine whether adjudicative guidelines
 were applied objectively. Of the 43 cases, 31 involved clearances that were reinstated
 during the review process or by the appeals panel, ﬁve involved clearances that were
 revoked, six involved individuals who resigned, and one case is up for review in early
 2007. OIG also reviewed the timelines and processes for 22 open cases.


OIG Report No. ISP-I-06-43, Review of DS’s Revocation Process for Security Clearances - September 2006   3 .


                       SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




           OIG speciﬁcally examined all closed reports of investigations (ROI) to ensure
      that they did not include investigators’ personal judgments. OIG also reviewed adju-
      dicators’ summary reports and recommendations, including supportive documenta-
      tion, to determine whether DS ofﬁcials reviewed individual cases before a proposed
      letter of revocation was sent to employees and whether Department employees
      facing clearance revocation received fair treatment.

          Additionally, OIG examined whether Recommendations 2 and 3 from OIG’s
      Report of Inspection, Bureau of Diplomatic Security, Directorate of Security Infrastructure (ISP-
      I-05-45, December 2004) were implemented.

          Ruth McIlwain (team leader), Gwendolyn Llewellyn, and Christopher Mack
      conducted the review in accordance with Quality Standards for Inspections, issued by the
      President’s Council on Integrity and Efﬁciency. A draft of the report was shared
      with DS and the Under Secretary for Management.




4 .          OIG Report No. ISP-I-06-43, Review of DS’s Revocation Process for Security Clearances - September 2006


                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED




                                           CONTEXT


    DS is responsible for personnel security matters within the Department. The
DS Adverse Action Division in the Directorate of Security Infrastructure, Ofﬁce of
Personnel Security and Suitability (DS/SI/PSS), adjudicates sensitive reports of in-
vestigations involving misconduct, criminal behavior, or counterintelligence matters
concerning Department employees and contractors, as well as other issues that may
give rise to a suspension or revocation of a security clearance.

     The Department has speciﬁc policies and guidelines for the revocation of secu-
rity clearance eligibility, and they are contained in 12 FAM 230.1 The Department
follows E.O. 12968, which establishes a uniform federal personnel security program
for employees who will be considered for initial or continued access to classiﬁed
information. It also follows E.O. 10450, which establishes security requirements for
government employees to ensure they are reliable, trustworthy, of good conduct and
character, and loyal to the United States; the Adjudicative Guidelines issued by the
National Security Advisor (dated December 29, 2005); and the investigative stan-
dards set forth in 12 FAM 221 and 12 FAM 228.

    The DS Ofﬁce of Investigation and Counterintelligence (DS/ICI) initiates an
investigation when it receives information in the form of a complaint regarding an
employee’s continued clearance for access to classiﬁed information. It forwards an
ROI to DS/SI/PSS for adjudication. The adjudication process usually results in the
temporary suspension of the security clearance; in some cases, it results in revoca-
tion of the clearance. Most cases involve an appeals process. (See Appendix A for a
diagram of this process.)

    After receipt of the ROI, DS/SI/PSS begins the revocation process, and the
adjudicator must review all documentation within 72 hours. During this review, the
employee’s clearance may be suspended. However, if the information is not serious
enough to warrant a continuation of the suspension or a recommendation to revoke
the security clearance, the adjudicator recommends that the employee receive a warn-
ing that future similar incidents may result in revocation of the employee’s security
clearance. The employee’s clearance is then reinstated, with or without conditions.

1 12 FAM 230 is under revision.


    OIG Report No. ISP-I-06-43, Review of DS’s Revocation Process for Security Clearances - September 2006   5 .


                           SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




          If the investigation reveals information that may adversely affect national se-
      curity, the adjudicator recommends revocation of an employee’s security clearance.
      After the adjudicator recommends revocation, there is an eight-level review by DS
      ofﬁcials and the Ofﬁce of the Legal Adviser2 before the Director of the Diplomatic
      Security Service signs a letter advising the employee that DS intends to revoke his or
      her security clearance. After an employee receives notice of the intention to revoke
      his or her security clearance, the employee has 30 days to respond. The employee
      may provide additional information that may cause the adjudicator to refer the case
      back to DS/ICI for further investigation. After considering this additional informa-
      tion, DS decides whether to continue the revocation process.

          If DS sustains the proposed revocation, the employee has 30 days to formally
      appeal the decision. DS is responsible for transmitting the employee’s appeal, includ-
      ing the complete case ﬁle and DS recommendations, to the Under Secretary for
      Management. The Under Secretary for Management is responsible for convening
      the appeals panel, which also includes the Assistant Secretary for Administration and
      the Director General of the Foreign Service and Director of Human Resources. DS,
      the Ofﬁce of the Legal Adviser, and the Ofﬁce of Medical Services, if appropriate,
      provide technical guidance to the panel. The panel makes the ﬁnal decision regard-
      ing revocation in accordance with E.O. 12968 and 12 FAM 233.4.d.




      2 The ofﬁcials are the chief, Adverse Action Division; assistant to the director and the director,
      DS/SI/PSS; Ofﬁce of the Legal Adviser; assistant to the director, Security Infrastructure; direc-
      tor, Security Infrastructure; assistant to the director, Diplomatic Security Service; and director,
      Diplomatic Security Service.




6 .       OIG Report No. ISP-I-06-43, Review of DS’s Revocation Process for Security Clearances - September 2006


                       SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




                                CASE ADJUDICATION


    OIG reviewed 43 closed cases, including the ROIs, against the standards set
forth in 12 FAM 230, the adjudicative guidelines, and Executive Orders. In every
closed case:
    •    Revocation, when recommended, only involved national security reasons,
    •    The adjudicators’ written recommendations contained no evidence of bias
         or prejudice,
    •    DS administered the revocation process equitably, and
    •    DS decisions were based upon speciﬁed investigative and adjudicative
         guidelines, Department standards, and Executive Orders.
    However, OIG also determined that the process for reviewing a proposed revo-
cation is lengthy, but concluded that the problem is due to circumstances beyond the
control of DS.



CASE PROCESSING TIME
     Although 12 FAM 231.3.b.2 states that “...DS will resolve issues requiring the
temporary suspension of clearance as quickly as possible (normally within 90 days),”
only two of the cases OIG reviewed met the 90-day timeframe. The rest exceeded
the 90-day period because of extenuating circumstances outside the control of DS.
On the average, cases took 21 months3 from the time a case was opened until an
employee’s security clearance was either reinstated or revoked. The shortest process-
ing time was one and a half months, and the longest was 59 months. Of 43 cases
reviewed, ﬁve involved employees who had their security clearances revoked and
six involved employees who resigned. The introduction of new information, the
involvement of outside entities, and scheduling of an appeals panel hearing greatly
affect the time for completing an adverse action case.


3 The average includes a closed case that the appeals board will review again in 2007 to deter-
mine whether the employee’s clearance will be reinstated on a provisional basis.


OIG Report No. ISP-I-06-43, Review of DS’s Revocation Process for Security Clearances - September 2006   7 .


                       SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




          The delay for 11 closed cases4 was due to the introduction of new information,
      presented by the employee or by a third party, that had not been previously investi-
      gated. If an employee submits additional relevant information after being notiﬁed
      of the Department’s intent to revoke the clearance, the sequence of investigative
      and adjudicative events repeats itself, which delays the process. Meanwhile, the
      employee’s clearance continues to be suspended. OIG informally recommended that
      the DS memorandum to the employee regarding revocation clearly state that any ad-
      ditional information or incidents arising during the course of an investigation could
      result in delay of a case while the new information is considered.

          In some cases, employees facing clearance revocation engaged in other miscon-
      duct (for example, not reporting a foreign contact, using a government credit card
      for personal use, or being charged with a crime by the local police) while the case
      was under review by the adjudicator. Whenever any new information is presented
      in a case, DS/ICI may initiate another investigation. This secondary investigation
      can delay the time it takes to process a case, especially if the new information af-
      fects matters addressed by E.O. 12968. The Adverse Action Division has some open
      cases dating back to 2003 because new additional allegations were introduced that
      have yet to be investigated and adjudicated.

           A referral to an outside entity can also cause a delay. For example, if an adjudica-
      tor encounters a counterintelligence issue during the adjudicative process, the adju-
      dicator forwards this information to DS/ICI for investigation. Depending on the
      case, DS/ICI may need to coordinate with other agencies such as the Federal Bureau
      of Investigation, the Central Intelligence Agency, Defense Intelligence Agency, or
      the Naval Criminal Investigative Service. After DS/ICI completes its investigation,
      it provides the adjudicator with the investigative results in the form of another ROI.
      Criminal cases are forwarded to the appropriate assistant United States Attorney. In
      either situation, once a case is forwarded to these entities, the Department has no
      control over the length of time it takes for them to complete the investigation. It
      can take many months before either outside entity makes a decision and reports back
      to DS.




      4 The time span for these cases was over two years before decisions were rendered.




8 .          OIG Report No. ISP-I-06-43, Review of DS’s Revocation Process for Security Clearances - September 2006


                          SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




CASE DOCUMENTATION
    According to the Adjudicative and Investigative Guidelines,5 investigations must
be fair, objective, and impartial, and reports must be accurate and complete. Al-
though the closed cases OIG examined included key information supporting the
facts of each case, the ﬁles were not properly organized or maintained. For example,
DS/ICI sends to the Adverse Action Division a detailed report, signed by a supervi-
sor, which includes background data on the employee in question and summarizes
the facts of the case. After analyzing the data, the adjudicator makes a recom-
mendation for action, producing a summary and analysis report. Some of these
reports were not dated or did not show the appropriate unit supervisory review and
approval, which is needed to establish that the report was complete. E-mails were
exchanged during the adjudication process and were included in the case ﬁles, but
actions resulting from the e-mails were not appropriately documented in the case
ﬁles. None of the ﬁles examined were in chronological order or contained a track-
ing worksheet, which would show when the case was received by the adjudicator, the
adjudicator’s name, the status of the case, the weekly review by the chief of the Ad-
verse Action Division, and when the case was closed. Furthermore, closed case ﬁles
contained multiple copies of documents, which should have been removed after the
case was closed. Case ﬁles should be maintained so that if a new adjudicator is as-
signed to a case or a supervisor reviews the case ﬁle, he or she may easily determine
the status of a case. OIG informally recommended that DS improve the organiza-
tion and maintenance of its case ﬁles.



CONDITIONAL SECURITY CLEARANCE
     Six6 of 31 closed cases in which DS reinstated the employee’s security clearance
also included conditions that the employees needed to meet during the probationary
period; however, there was no documentation in the ﬁles indicating that DS followed
up to make certain that the conditions were met. DS may choose to conditionally re-
instate an employee’s security clearance based on the employee meeting certain stipu-
lations during a probationary period, which ranges from 18 months to two years.
 (b)(2)High
-------------------------------------------------- ----------------------- -----------------------------
(b)(2)High
-------------------------------- The best assurance that no problem arose

5 12 FAM 221.7-1 and 7-2; Adjudicative Guidelines, National Security Advisor (December 2005).
6 The six closed cases that OIG reviewed involved issues of security violations for mishandling
classiﬁed material and misconduct such as alcohol and drug abuse.

 OIG Report No. ISP-I-06-43, Review of DS’s Revocation Process for Security Clearances - September 2006    9 .


                        SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED




       during the probationary period would involve including an updated memorandum or
       other documentation in the case ﬁle when the case is closed. Doing so would verify
       that no other incidents occurred during the probationary period and that the employ-
       ee met the condition(s) to have his or her clearance reinstated.

          Recommendation 1: The Bureau of Diplomatic Security should implement a
          process to follow up on cases in which the letter of security clearance reinstate-
          ment imposes conditions, documenting with a memorandum in the case ﬁle
          whether the employee met the stated conditions. (Action: DS)


          Recommendation 2: The Bureau of Diplomatic Security should follow up on
          the six closed cases that have conditional reinstatements to determine whether
          the employees met the conditions. (Action: DS)




10 .        OIG Report No. ISP-I-06-43, Review of DS’s Revocation Process for Security Clearances - September 2006


                         SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




                                  THE APPEALS PANEL


     The Appeals Panel is causing a delay in the revocation process due to the tempo-
 rary absence of one or more panel members. According to 12 FAM 233.4d, if either
 the Assistant Secretary for Administration or the Director General is unable to serve
 on the panel, the Under Secretary for Management must appoint a senior manager
 from that member’s bureau to serve as an alternate. Should the Under Secretary for
 Management be unable to serve, the Deputy Secretary is to appoint an appropriate
 substitute.

     OIG’s review of closed cases found that the appeals panel took anywhere from
 three to 13 months to render the Department’s ﬁnal decisions. The panel decides
 when a hearing will be conducted. There is no requirement specifying the period of
 time that may elapse between when DS notiﬁes the Under Secretary for Management
 of an employee’s notice of appeal and when the actual date of the hearing is sched-
 uled.

     Recommendation 3: The Under Secretary for Management, in coordination
     with the Bureaus of Administration and Human Resources, should convene an
     appeals panel and render a decision within a reasonable time, such as 45 calen-
     dar days after receiving from the Bureau of Diplomatic Security a notiﬁcation
     of an employee’s appeal of a decision to revoke a security clearance. (Action:
     M, in coordination with A and DGHR)




OIG Report No. ISP-I-06-43, Review of DS’s Revocation Process for Security Clearances - September 2006   11 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




12 .   OIG Report No. ISP-I-06-43, Review of DS’s Revocation Process for Security Clearances - September 2006


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




     STREAMLINING THE PROCESS WITH TECHNOLOGY


     The security clearance revocation process would be easier to manage if adjudica-
tors in DS/SI/PSS and investigators in DS/ICI had electronic access to each other’s
investigative and case ﬁle data. DS/SI/PSS’s tracking systems are maintained on the
unclassiﬁed Department network, but DS/ICI’s investigative records are maintained
on the classiﬁed network. (b)(2)High
                                   ------- - - ------------------- -----------------------------------------
(b)(2)High
-------- --------------------------- ------------------------------------ ---- ------------------ -------
----------------------------- - ---------------------------------------- ---- ------------ ---- -----------
----------- ---- -------------------- - - ------------------------- -------------------- ------------ ---
--------------------------------------------- --------------- ------------- ---- ----------- -----------
------------------------------------- - - ------------ ---------------------------------------------
----------------------------------------------------- ---------- -------------- ----------------------
(b)(2)High
----------- However, CMS could be joined with DS’s current Reports Management
System, which DS/SI/PSS uses for reviewing ﬁeld investigative information on an
employee’s security clearance. This would allow data sharing between the two sys-
tems. ROIs for adverse actions, however, are only available as hard copies because
they are generated on the classiﬁed system. Enhancing the technology would allow
adjudicators and investigators to access a case ﬁle and write comments and upload
data easily as information is received.

    Automation would also eliminate the need to make photocopies of case ﬁles.
For example, after the Adverse Action Division goes through its necessary approval
process for a security clearance revocation, a copy of the case ﬁle is made for each
of the eight reviewers.7 This is a time-consuming process because of the number
of reports, rebuttals, and addendums included in case ﬁles. Finally, automating the
documentation would enhance the ability of the Adverse Action Division to compile
and analyze historical and statistical data related to case ﬁles.

    The Adverse Action Division and the DS Ofﬁce of the Chief Technology Of-
ﬁcer are identifying requirements that would provide a more specialized user access
for adjudicators so that reports and other unclassiﬁed documentation could be up-
loaded electronically. The DS Ofﬁce of the Chief Technology Ofﬁcer said there is
no estimated completion date for the necessary enhancements because DS and other


7 See footnote 2.



OIG Report No. ISP-I-06-43, Review of DS’s Revocation Process for Security Clearances - September 2006         13 .


                       SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED




       relevant bureaus must change certain information technology policies regarding
       remote access for this development to begin. OIG informally recommended that
       DS expedite the policy changes needed to start the development process for system
       enhancements.




14 .           OIG Report No. ISP-I-06-43, Review of DS’s Revocation Process for Security Clearances - September 2006


                            SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED




                             DS COMPLIANCE ACTIONS


    OIG reviewed compliance with Recommendations 2 and 3 from its inspection
of DS’s Directorate of Security Infrastructure.8 These recommendations called for
DS to implement internal controls and to establish procedures to be certain that ﬁles
are complete and meet federal standards before granting a security clearance.

  DS responded to these recommendations on February 8, 2005. In response,
OIG closed the recommendations along with others from the report.

      DS/SI/PSS has made several improvements by instituting internal controls and
establishing a quality assurance process to review investigative and adjudicative ﬁles
for completeness. Investigators make every effort to meet the investigative require-
ments of 12 FAM 221.7-1 and 7-2. In those instances when these requirements
cannot be met, they document the reasons. For example, if the investigator does not
receive information from a regional security ofﬁcer on time, the investigator makes
a risk management decision as to whether or not that information is necessary to
complete the case. The investigator documents that decision in the ﬁles, which are
subject to supervisory review.

    A DS analyst randomly selects 20 cases per month and uses a review sheet that
mirrors investigative standards to evaluate the case ﬁles. According to the analyst,
none of the cases reviewed had to be reopened due to incomplete data. The results
of the quality assurance review are presented to the director of DS/SI/PSS.

    DS initially conducted two in-house training sessions for its investigative and ad-
judicative staff and has established a formal training class at the DS Training Center
that all DS special agent new hires must attend. The training includes investigative/
adjudicative standards, ofﬁce policy, and information about E.O. 12968.




8 Report of Inspection, Bureau of Diplomatic Security, Directorate of Security Infrastructure (ISP-I-05-45),
December 2004




OIG Report No. ISP-I-06-43, Review of DS’s Revocation Process for Security Clearances - September 2006         15 .


                         SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




16 .   OIG Report No. ISP-I-06-43, Review of DS’s Revocation Process for Security Clearances - September 2006


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




                        FORMAL RECOMMENDATIONS


Recommendation 1: The Bureau of Diplomatic Security should implement a pro-
  cess to follow up on cases in which the letter of security clearance reinstatement
  imposes conditions, documenting with a memorandum in the case ﬁle whether
  the employee met the stated conditions. (Action: DS)

Recommendation 2: The Bureau of Diplomatic Security should follow up on the
  six closed cases that have conditional reinstatements to determine whether the
  employees met the conditions. (Action: DS)

Recommendation 3: The Under Secretary for Management, in coordination with
  the Bureaus of Administration and Human Resources, should convene an ap-
  peals panel and render a decision within a reasonable time, such as 45 calendar
  days after receiving from the Bureau of Diplomatic Security a notiﬁcation of an
  employee’s appeal of a decision to revoke a security clearance. (Action: M, in co-
  ordination with A and DGHR)




OIG Report No. ISP-I-06-43, Review of DS’s Revocation Process for Security Clearances - September 2006   17 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




18 .   OIG Report No. ISP-I-06-43, Review of DS’s Revocation Process for Security Clearances - September 2006


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




                      INFORMAL RECOMMENDATIONS


Informal recommendations cover matters not requiring action by organizations
outside of the inspected unit and/or the parent regional bureau and are not sub-
ject to the OIG compliance process. However, any subsequent OIG inspection or
onsite compliance review will assess the progress made in implementing the informal
recommendations.

Department employees are not aware that their case will be further delayed each time
they submit new information to DS or if they commit another offense during the
adverse action process.

Informal Recommendation 1: The Bureau of Diplomatic Security should state in
the employee’s memorandum for revocation that any additional information provid-
ed or additional offenses committed during the course of the adverse action process
will further delay the employee’s case.

Adverse action case ﬁles are poorly organized. For example, none of the case ﬁles
were in chronological order or contained a worksheet showing the disposition of a
case. (A worksheet would show the dates of actions, reviews, referrals of the case to
another agency, follow-ups to check on the case with that agency, or when the case
was closed.) Additionally, duplicative documents had not been removed when a case
was closed.

Informal Recommendation 2: The Bureau of Diplomatic Security should keep its
ﬁles in chronological order, ensure that the case ﬁles include a worksheet that con-
tains all relevant actions taken while the case was pending, and remove duplicative
documents from closed case ﬁles

Case ﬁles in the Adverse Action Division would be easier to manage if adjudicators
and investigators had access to each other’s ﬁles. This requires DS to make changes
to its policy on uploading and downloading data to the Department’s OpenNet net-
work before any system development can begin.

Informal Recommendation 3: The Bureau of Diplomatic Security should implement
the Department’s new information technology policy to enable uploading and down-
loading from certain web-based applications.

OIG Report No. ISP-I-06-43, Review of DS’s Revocation Process for Security Clearances - September 2006   19 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




20 .   OIG Report No. ISP-I-06-43, Review of DS’s Revocation Process for Security Clearances - September 2006


                    SENSITIVE BUT UNCLASSIFIED
                       SENSITIVE BUT UNCLASSIFIED




                                     ABBREVIATIONS


                    CMS        Case Management System
           Department          Department of State
                      DS       Bureau of Diplomatic Security
                DS/ICI         DS Ofﬁce of Investigations and Counterintelligence
           DS/SI/PSS           DS Ofﬁce of Personnel Security and Suitability
                    E.O.       Executive Order
                     HR        Bureau of Human Resources
                    OIG        Ofﬁce of Inspector General
                    ROI        Report of investigation




OIG Report No. ISP-I-06-43, Review of DS’s Revocation Process for Security Clearances - September 2006   21 .


                       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




22 .   OIG Report No. ISP-I-06-43, Review of DS’s Revocation Process for Security Clearances - September 2006


                    SENSITIVE BUT UNCLASSIFIED
 SENSITIVE BUT UNCLASSIFIED




SENSITIVE BUT UNCLASSIFIED
